HHS/OIG, Audit -"Review Of Hartford Hospital's Controls To Ensure Accuracy Of Wage Data Used For
Calculating Inpatient Prospective Payment System Wage Indexes,"(A-01-04-00524)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Hartford Hospital's Controls To Ensure Accuracy Of Wage Data Used For Calculating Inpatient
Prospective Payment System Wage Indexes," (A-01-04-00524)
June 29, 2005
Complete
Text of Report is available in PDF format (515 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether
Hartford Hospital (the hospital) reported fiscal year (FY) 2001 Medicare cost report wage data in
compliance with Medicare  regulations and guidance.  We found that the hospital did not
fully comply with Medicare regulations and guidance for reporting wage data in its FY 2001 Medicare
cost report.  Specifically, the hospital reported wage data that included: (1) unreasonable
pension costs of $3,651,298; (2) unallowable contract labor services totaling $1,039,286 in salaries
and 27,456 in hours; and (3) overstated overhead hours and employees severance pay without the related
hours that understated wages by $149,674 and hours by 25,499.  These errors occurred because
the hospital did not sufficiently review and reconcile wage data to ensure that all amounts reported
were accurate and supportable, and in compliance with Medicare regulations and guidance.  As
a result, the hospital overstated its wage data by $4,540,910 and its average hourly wage rate by
about 2 percent for the FY 2001 Medicare cost report period.  We recommended the hospital strengthen
its financial reporting controls to ensure compliance with Medicare regulations and guidance.  The
hospital did not agree with our first two findings and did not comment on our third finding.